No. 20-_ __

IN THE
SUPREME COURT OF THE UNITED STATES
CORDARRIUS BONDS,
Petitioner,
vs.

UNITED STATES OF AMERICA,
Respondent.

CERTIFICATE OF WORD COUNT
The undersigned h ereby certifies t h at the P etition for Certiorari complies
with the requirements of the type-volume limitation of Rule 33. l(g)(i), Supreme
Court Rules, as it contains 5,851 words, excluding th e question presented, list of
parties, list of related proceedings, table of contents, table of citations, and th e
certificates of counsel. Certification is based on the word count of th e wordprocessing system used in preparing this Petition, Microsoft Word.
This the 12th day of November, 2020.

~&i;~~
Assistant Federal Defender
F ederal Defender Services
of Eastern Tennessee, Inc.
800 South Gay Street, Suite 2400
Knoxville, Tennessee 37929
(865) 637-7979

